No. 20-1459
IN THE
SUPREME COURT OF THE UNITED STATES

United States of America,
Petitioner,
v.
Justin Eugene Taylor,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The respondent asks leave to file the attached brief in opposition to certiorari
without prepayment of costs and to proceed in forma pauperis.
The Office of the Federal Public Defender (OFPD) for the Eastern District of
Virginia was appointed by the U.S. Court of Appeals for the Fourth Circuit to
represent respondent in connection with his filing of a motion pursuant to 28 U.S.C.
§§ 2244(b), 2255(h) (2012) for authorization to file a second or successive 28 U.S.C.
§ 2255 (2012) motion. Upon that court’s grant of authorization, the OFPD continued
to represent respondent in the district court for the litigation of the § 2255 motion,
and then in the Fourth Circuit for his appeal of the denial of the motion. As well,
respondent, who has been incarcerated in the Bureau of Prisons since his original
conviction in this case, had court-appointed counsel during the original prosecution
and on direct appeal.
Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ' 3006A, no affidavit or declaration of the respondent is attached.
See S. Ct. R. 39.1.

